            REVIEW OF
THE FEDERAL ACQUISITION SERVICE’S
     CLIENT SUPPORT CENTER
       PACIFIC RIM REGION
REPORT NUMBER A090139/Q/9/P10008
          JUNE 21, 2010
Date:        June 21, 2010

Reply to
Attn of:     Audit Manager, San Francisco Field Audit Office (JA-9)


Subject:     Review of the Federal Acquisition Service’s Client Support Center
             Pacific Rim Region
             Report Number A090139/Q/9/P10008

To:          John W. Boyan, Regional Commissioner (9Q)


Background

This report presents the results of the Office of Inspector General’s audit of the Federal
Acquisition Service (FAS) Client Support Center in the Pacific Rim Region (Pacific Rim
CSC). As directed in The National Defense Authorization Act for Fiscal Year 2008,
Public Law 110-181, the Inspectors General of the U.S. Department of Defense (DoD)
and General Services Administration (GSA) are to report whether GSA is or is not
complying with laws and regulations applicable to DoD procurements.

Objective, Scope, and Methodology

Our objective was to assess whether the policies, procedures, and internal controls of
the Pacific Rim CSC are administered in a manner compliant with the Federal
Acquisition Regulation (FAR) and Defense procurement requirements.

To accomplish our objective, we analyzed two stratified random samples of
procurement actions for services greater than $100,000 executed between
June 1, 2008 and March 31, 2009; and April 1, 2009 and September 30, 2009,
respectively. For those same time periods, we also analyzed two judgmental samples
of modifications placed against existing procurement actions. For the Pacific Rim CSC,
our samples included 16 new awards valued at $30.8 million and 4 modifications to
existing orders valued at $56.6 million.

We conducted this performance audit from July 2009 through March 2010 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

                                            1
Results of Audit

Overall, we found the Pacific Rim CSC compliant with the FAR and Defense
procurement requirements 1 . We noted that the Region has implemented national
controls to improve its overall contracting practices; however, we identified a potential
Antideficiency Act violation. Additionally, we identified deficiencies that present an
opportunity for improvement in the task order award and administration processes as
well as in file documentation.

Potential Antideficiency Act Violation

We identified one instance of a potential Antideficiency Act (ADA) violation on a DoD
task order modification. The Pacific Rim CSC violated the bona fide needs rule by
using expired funds to pay for goods and services received. The task order’s period of
performance consisted of a base period, three option years, and a six-month extension
modification. Other direct costs (ODCs) were billed above the maximum ceiling value in
the amount of $102,032 for Option Year 3 and in the amount of $259,914 for the
extension modification. Residual funds from previous Fiscal Years (FYs) were used to
cover these ODC overages.

Appropriated funds may be used only if there is a bona fide need for the requirement in
the year the appropriations are available for obligation (Title 31 U.S.C. Section 1502(a)).
Therefore, by using expired funds from previous FYs, the Pacific Rim CSC violated the
bona fide needs rule. However, bona fide needs violations are correctable by replacing
the incorrect FY funds with the correct FY funds, provided that the funds are available.
This avoids an ADA violation and the associated reporting requirements of such a
violation.

After we notified Pacific Rim CSC management of the bona fide needs issue in
November 2009, they took action to remedy the situation by requesting replacement FY
2008 and FY 2009 funds from the client. The DoD client responded in December 2009
that additional funding would not be provided. Therefore, this remains a potential ADA
violation in the amount of $361,946 and the Pacific Rim CSC needs to take action to
resolve this issue.

The Pacific Rim CSC acknowledges that effective procedures were not in place to track
task order costs at the line item level to avoid billing over the maximum ODC ceiling. It
is essential that the Pacific Rim CSC review its internal processes to ensure that similar
instances do not occur.




                                                            
1
 For audit report purposes, we will be reporting on the issues that have been determined to be within the
responsibility of FAS. The DoD Office of Inspector General will be reporting on those issues that are
attributable to the DoD under separate cover.

                                                               2
Task Order Award Deficiencies

During our review, we identified various deficiencies related to task order awards,
including:

   •   One instance of inadequate justification for other than full and open competition
       of a bridge task order. This bridge task order was awarded as a follow-on to a
       previous task order, which could not continue because the Pacific Rim regional
       counsel (regional counsel) did not approve the fourth option year package.
       When regional counsel approved the third option year package, they noted that
       the legal review was requested at the last minute for the third consecutive year.
       In addition, they recommended that the acquisition strategy and project
       requirements be reconsidered for the task order and that the contracting officer
       perform a wholesale review of the project funding.                 Despite these
       recommendations, the Pacific Rim CSC exercised the third option period without
       taking any further action. With less than a week remaining in the third option
       period, the Pacific Rim CSC provided regional counsel with the fourth option year
       package, which was ultimately declined. The Pacific Rim CSC inadequately
       administered this task order and lack of planning did not allow ample time for
       competition of a new task order. The Pacific Rim CSC chose to award a sole-
       source bridge task order and in doing so, was required to provide a justification
       that exempted them from obtaining full and open competition for the new task.
       FAR Subpart 6.3 identifies the statutory authorities for contracting without
       providing for full and open competition. The Pacific Rim CSC’s justification for
       not achieving full and open competition was only one responsible source and no
       other supplies and services would satisfy agency requirements. While this
       justification is allowed under FAR 6.3, it cannot be used on the basis of a lack of
       advance planning by Pacific Rim CSC. In order to ensure that task orders are
       properly managed and sufficient time and consideration is given to make
       effective procurement decisions, the Pacific Rim CSC should enhance its
       controls over task order administration.

   •   Two instances of inadequate competition. In both instances, the contracting
       officer did not provide a reasonable amount of time to allow interested
       contractors to prepare and submit bids in response to a solicitation. As a result,
       the government may not have received best value due to limited competition. In
       one instance, the solicitation for a $3.8 million task order was open for only five
       business days. The client requested that the Pacific Rim CSC expedite the
       procurement to avoid a break in service. The incumbent contractor was the sole
       bidder and was ultimately awarded the task order. Despite the client’s request,
       the Pacific Rim CSC should have provided contractors with a reasonable amount
       of time to respond to the requirement. In the other instance, the contracting
       officer allowed a task to expire and, in an effort to prevent a break in service,
       limited the response time for submitting bid proposals for a follow-on task order.
       There is evidence in the official file that shows two contractors were discouraged

                                            3
    from further participating in the proposal process because of the limited
    timeframe to award the task order. Additionally, to be considered for the task
    order, contractors were required to possess a specific authorization, which the
    incumbent already had; therefore, providing this contractor with an advantage
    over other interested parties. Ultimately, the incumbent was awarded the task
    order. In both instances, the competitive environment was negatively affected
    due to the restricted time frames imposed by the contracting officers. The Pacific
    Rim CSC should strive to facilitate a competitive environment for all task order
    awards, and provide a fair opportunity to all eligible contractors.

•   Thirteen instances of missing or inadequate interagency agreements. Two task
    orders did not have interagency agreements. In addition, there were eleven
    instances of inadequate interagency agreements. In these cases, an agreement
    was deemed inadequate if required elements were missing, if it was signed after
    task order award, or if it included incorrect task order information. The required
    elements of an interagency agreement are specified in GSA acquisition letters
    and Office of Federal Procurement Policy guidance. Interagency agreements
    outline the general and specific terms and conditions to govern the relationship
    between the servicing and requesting agencies, and procurement policy dictates
    what elements needs to be included. To ensure quality assisted acquisitions, the
    Pacific Rim CSC should ensure that all task orders have an interagency
    agreement and that those agreements include all required elements.

•   Ten instances of inadequate acquisition plans.          Acquisition plans were
    determined to be inadequate if the plans were untimely, not dated, in draft
    format, missing required elements, or missing required approval signatures. FAR
    Subpart 7.102(b) states that agencies must perform acquisition planning and
    conduct market research for all acquisitions and FAR Subpart 7.105 outlines the
    required contents of written acquisition plans. To ensure that proper acquisition
    planning is taking place, the Pacific Rim CSC should ensure that all acquisition
    plans go through the appropriate approval channels and incorporate all required
    elements.

•   Six instances of inadequate Independent Government Estimates (IGEs).
    Pertinent information, such as the name/signature of the preparer and the date
    prepared, were missing from the IGEs. Additionally, in some cases there was
    not adequate support in the official file to determine the basis used for developing
    the IGE. We understand that specific requirements for the preparation of an IGE
    do not exist; however, in order to determine that the estimate was independently
    prepared, dates and signatures should be included on the document. Further,
    when the IGE is used to evaluate price reasonableness of a task order, the
    contracting officer should be cognizant of the basis for the amounts contained in
    the IGE. The importance of this is heightened in situations where there is only
    one offeror or when the contracting officer is relying solely on the IGE for the
    price reasonableness determination.

                                         4
       •      Three instances in which IGEs were not independently prepared. One IGE was
              prepared by the contractor and two IGEs were prepared using the winning
              contractor’s proposal. In all three instances, Pacific Rim CSC personnel received
              the IGE from the client and were not aware that the client did not prepare the IGE
              independently. This reaffirms the importance of preparer information being
              included on the IGE. Additionally, any other information that helps establish the
              methodology used to develop the estimate would be beneficial for contracting
              personnel. When accepting IGEs from the client, the Pacific Rim CSC needs to
              ensure that it has sufficient information to fully understand the IGE and its
              components.

       •      Six instances of inadequate price reasonableness determinations. In three
              instances, an evaluation of labor mix or level of effort was not performed. For the
              remaining three, ODCs were not evaluated as part of the task order price. Per
              FAR 8.405-2(d), the ordering activity is responsible for considering the level of
              effort and the mix of labor proposed to perform a specific task, and for
              determining that the total price is reasonable. In addition, per FAR 8.402, items
              such as ODCs, which are not on the Multiple Award Schedule 2 , can only be
              added if the contracting officer has determined that the price is found to be fair
              and reasonable for those items. To ensure that FAS is providing its customers
              with best value procurements, the Pacific Rim CSC should thoroughly evaluate
              the price reasonableness for each element of a task order.

       •      Four instances in which Quality Assurance Surveillance Plans (QASPs) were
              delivered late and one instance in which a QASP was not prepared. In
              accordance with FAR 46.401, a QASP should be prepared in conjunction with
              the statement of work and incorporated into the task order file to assure that the
              government receives the services for which it has paid. To ensure proper
              surveillance of task order performance, the Pacific Rim CSC needs to be more
              diligent in ensuring that QASPs are completed timely for all task orders.

       •      One instance in which the Contracting Officer’s Representative (COR) was not
              properly certified. Although the COR was designated on April 1, 2008, she was
              not certified until February 13, 2009, 10 months after appointment. Per an Office
              of Management and Budget (OMB) memorandum dated November 26, 2007, all
              CORs appointed after that date are required to attain certification no later than
              six months from their date of appointment. Additionally, this particular COR
              improperly authorized payment of an invoice for services not received (see Task
              Order Administration section, page 7); therefore, she did not fulfill one of her
              COR responsibilities as outlined in the COR designation. To ensure that proper

                                                            
2
 The Multiple Award Schedule program is directed and managed by GSA and provides Federal agencies
with a simplified process for obtaining commercial supplies and services at prices associated with volume
buying.

                                                               5
       contract administration occurs, a COR should be properly certified in accordance
       with OMB policy.

   •   One instance of awarding a task order with options against the recommendation
       of regional FAS management. A Pacific Rim Region Acquisition Operations
       Division (AOD) official stated that the task order had been mismanaged and that
       options would not be authorized. However, the task order award included a
       provision which would allow the contracting officer the option to extend services,
       which is in contrast to the AOD’s directive. In order to ensure that contracting
       personnel adhere to FAS managements’ recommendations, the Pacific Rim CSC
       should improve task order oversight.

Task Order Administration Deficiencies

During our review, we identified various deficiencies related to task order administration,
including:

   •   One instance of improper administration of client funds. A task order was
       awarded with line items Task 1, Task 2, and Task 3. Task 1 consisted of Time &
       Material (T&M) services, travel, and shipping. Task 1 T&M services were funded
       in the amount of $3,996,020. However, invoices were paid for Task 1 services in
       the amount of $4,037,836, exceeding the funding amount by $41,816. We have
       determined that no other modification or funding document provided funds for an
       increase of Task 1 T&M services above the original funded amount. Further, we
       identified residual Task 1 travel and shipping funds that were used to pay for the
       Task 1 T&M services; therefore, Task 1 T&M services billings exceeded the
       funded amount available. Additionally, there were 23 instances in which Military
       Interdepartmental Purchase Requests (MIPRs) stated that funds were for a
       particular line item; however, the funds were used to pay invoices for line items
       other than those specified. We also noted an instance in which FY 2009 funds
       for Option Year 1 services were used to pay for Base Year services also
       occurring in FY 2009.          While the correct FY funds were used, this
       mismanagement of the funds could create a bona fide needs issue if the FY 2009
       funds are not used within the period of availability, not to exceed one year.
       Given that the client clearly specified on the MIPRs which line items were to be
       funded, the Pacific Rim CSC needs to ensure that invoices are being paid
       accordingly. In an effort to properly manage funds, the Pacific Rim CSC should
       ensure that client funds are used as specified on the funding document.

   •   Two instances in which the Pacific Rim CSC did not return excess funds to DoD
       in a timely manner. In both instances, excess funds were not returned until five
       months after task order closeout. According to FAR 4.804-5, at the time of
       closeout, the contract administration office must review the contract funds status
       and notify the contracting office of any excess funds the contract administration
       office might de-obligate. To comply with this regulation, the Pacific Rim CSC

                                            6
       should ensure coordination between the contract administration office and the
       contracting officer to identify unused funds at the time of task order closeout and
       remit them to the client as soon as possible.

   •   One instance of improper payment of invoice for services not received. The
       COR authorized payment of an invoice in the amount of $25,003 for services not
       received by the client agency. Per the COR designation letter, a COR’s
       responsibilities include assuring prompt inspection and acceptance or rejection of
       reports, deliverables, and invoices. Prior to authorizing payment of invoices, the
       COR should verify that all goods and services have been received in accordance
       with the terms and conditions of the task order.

Minor Deficiencies – File Documentation

During our review, we also noted isolated instances of minor deficiencies related to file
documentation, including:

   •   Eight instances of award and administration documentation either containing
       incorrect information or missing pertinent information.

   •   Four instances in which award and administration documents were not contained
       in the official task order file.

   •   Two instances in which task order COR designation letters were not signed by
       the contracting officer.

In accordance with FAR 4.801, the documentation in the files shall contain all
contractual actions and shall be sufficient to constitute a complete history of the
transaction. In an effort to document and fully support all contracting actions taken on a
specific task, the Pacific Rim CSC needs to ensure that contract files contain all
required documentation.

Recommendation

We recommend that the Regional Commissioner of the Pacific Rim Region:

       Work in conjunction with the Chief Financial Officer, Office of General Counsel,
       and Federal Acquisition Service Controller to initiate a review to determine
       whether prior period actions are matters subject to reporting under the
       Antideficiency Act.




                                            7
Management Comments

On June 14, 2010, the Regional Commissioner, Federal Acquisition Service, Pacific
Rim Region concurred with the findings and recommendation outlined in the report.
Management’s written comments are included in their entirety as Appendix A.

Internal Controls

We assessed the internal controls relevant to the Pacific Rim CSC procurements to
assure that they were made in accordance with the FAR, Defense procurement
requirements, and the terms and conditions of the contracts utilized. The Pacific Rim
CSC needs to continue its commitment to effective controls over procurement
processes.

If you have any questions regarding this report, please contact me at (415) 522-2733.




PERLA CORPUS
Audit Manager (JA-9)
San Francisco Field Audit Office




                                           8
            REVIEW OF
THE FEDERAL ACQUISITION SERVICE’S
     CLIENT SUPPORT CENTER
       PACIFIC RIM REGION
REPORT NUMBER A090139/Q/9/P10008
                 
                 
     MANAGEMENT COMMENTS




               A-1
                                   REVIEW OF
                       THE FEDERAL ACQUISITION SERVICE’S
                            CLIENT SUPPORT CENTER
                              PACIFIC RIM REGION
                       REPORT NUMBER A090139/Q/9/P10008


                          REPORT DISTRIBUTION VIA EMAIL


                                                                      No. of
                                                                     Recipients


Regional Commissioner, Pacific Rim Region (9Q)                          1

Acting Commissioner, Federal Acquisition Service (Q)                    1

Assistant Commissioner, Assisted Acquisition Services,
Federal Acquisition Service (QF)                                        1

Chief Financial Officer (B)                                      1

Acting Controller, Federal Acquisition Service (QB)                     1

General Counsel (L)                                                     1

Chief, Internal Control and Audit Division (BEI)                        1

Office of the Inspector General (J)                                     4

Assistant Inspector General for Auditing (JA)                           1

Principal Deputy Assistant Inspector General for Auditing (JA)          1

Acquisition Programs Audit Office (JA-A)                                1

Operations Staff Office (JAO)                                           1

Special Agent in Charge for Investigations (JI-9)                       1
                                                 




                                            B-1
